IN THE SUPREME COURT OF THE UNITED STATES
CHRISTOPHER JONELL TYLER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PURSUANT TO Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, Christopher Jonell Tyler, asks leave to file the accompanying
Petition for Writ of Certiorari to the Fourth Circuit Court of Appeals without
payment of costs and to proceed in forma pauperis and in support thereof states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the
Rules of this Court, with Appendix attached, is submitted for filing
along with this Motion.

2.

Petitioner was determined to be indigent by the United States District
Court for the Western District of North Carolina on November 6, 2006
and the undersigned counsel was appointed September 11, 2019, under
18 U.S.C. ยง 3006A.

Respectfully Submitted,
CHRISTOPHER JONELL TYLER
By
/s/ James W. Kilbourne, Jr.
JAMES W. KILBOURNE, JR.
ALLEN STAHL & KILBOURNE, P.L.L.C.
Twenty Town Mountain Road
Asheville, NC 28801
(828) 254-4778
jamesk@asklawnc.com
Attorney for the Petitioner
Appointed under the Criminal Justice Act

